FILED: November 5, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6493
(l:17-cr-00157-LCB-l)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DERRICK MICHAEL ALLEN, SR.
Defendant - Appellant

ORDER
The court strictly enforces the time limits for filing petitions for rehearing
and petitions for rehearing en banc in accordance with Local Rule 40(c). The
petition in this case is denied as unthnely.
For the Court—By Direction
/s/ Patricia S. Connor. Clerk

USCA4 Appeal: 20-6493

Doc: 17

Filed: 10/16/2020

Pg: 1 of 1

FILED: October 16, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6493
(1:17-cr-00157-LCB-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

DERRICK MICHAEL ALLEN, SR.
Defendant - Appellant

ORDER

The court denies the petitions for rehearing.
Entered at the direction of the panel: Judge Wynn, Judge Diaz, and
Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor, Clerk

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6493
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DERRICK MICHAEL ALLEN, SR.,
Defendant - Appellant.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Loretta C. Biggs, District Judge. (l:17-cr-00157-LCB-l)
Submitted: August 14, 2020

Decided: September 10, 2020

Before WYNN and DIAZ, Circuit Judges, and SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Derrick Michael Allen, Sr., Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Derrick Michael Allen, Sr., appeals the district court’s order denying his motion for
a certificate of innocence. We have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the district court. United States v. Allen,
No. l:17-cr-00157-LCB-l (M.D.N.C. Apr. 10, 2020). We deny Allen’s motion to appoint
counsel. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

2

FILED: September 10, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6493
(1:17-cr-00157-LCB -1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DERRICK MICHAEL ALLEN, SR.
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR. CLERK

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA

UNITED STATES OF AMERICA
L17CR157

v.
DERRICK MICHAEL ALLEN SR.

ORDER
This matter is before the Court on Defendant’s Motion for a Certificate of Innocence
made pursuant to 28 U.S.C. §2513. (ECF No. 65). The Government filed its response to the
motion on March 17, 2020, (ECF No. 72.)
The Court having considered the parties filings enters the following,
IT IS HEREBY ORDERED that Defendant’s Motion for a Certificate of Innocence,
(ECF. No 65), is hereby DENIED.
This, the 10th day of April 2020.
/s/ Loretta C. Biggs______
United States District Judge

Case l:17-cr-00157-LCB Document 75 Filed 04/10/20 Page 1 of 1

Additional material
from this filing is
available in the
Clerk's Office.

